INS-O-01-04




  INSPECTION                       INSPECTION OF THE
    REPORT                            PURCHASE OF
                              PROTECTIVE FORCE RESPIRATORS




                                       APRIL 2001




  U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                              U.S. DEPARTMENT OF ENERGY
                                    Washington, DC 20585

                                          April 12, 2001


MEMORANDUM FOR THE ACTING DIRECTOR, OFFICE OF SECURITY AND
               EMERGENCY OPERATIONS

FROM:                     Sandra L. Schneider /s/
                          Assistant Inspector General for Inspections

SUBJECT:                  INFORMATION: Report on “Inspection of the Purchase of
                           Protective Force Respirators” (INS-O-01-04)

BACKGROUND

Office of Security and Emergency Operations (SO) officials determined that SO’s program to
counter the threat to Department of Energy (DOE) security forces from chemical and biological
attacks should include the use of “standardized” equipment. Therefore, SO officials initiated an
evaluation of chemical protective gear for the purpose of selecting and procuring a “standard”
respirator for use by protective force personnel at all sites. The centralized procurement of a
“standard” respirator was intended to: (1) provide a respirator that has proper form, fit, and function
that is compatible with weapons and gear, including night vision goggles, used to interdict terrorists;

(2) create economies of scale purchasing;
(3) allow standardized training at the National Nuclear Security Institute (NNSI), and
(4) allow ease of movement of protective force personnel from one site to another in the event of
exigent circumstances.

RESULTS OF INSPECTION

We concluded that SO officials did not adequately plan and execute the procurement of respirators
for use by the Department’s protective forces. We determined that the procurement was not
adequately coordinated with affected organizations; that considerably more respirators may be
procured than needed; and that by using an NNSI contractor to conduct the procurement, SO
officials may have unnecessarily spent about $63,000 to purchase the respirators and other chemical
protective equipment. We also determined that the SO procurement will not result in a standard
respirator for use by protective force personnel Department-wide, which was a goal of the
procurement. We recommended actions to ensure that future efforts by SO to select and procure
“standardized” equipment for protective forces are adequately planned and coordinated, and that SO
officials responsible for procurement of equipment for protective forces are knowledgeable of, and
appropriately trained in the Department’s acquisition process. Management concurred with our
recommendations.

Attachment

cc: Administrator, National Nuclear Security Administration
    Chief of Defense Nuclear Security
    Director, Office of Management and Administration
    Team Leader, Audit Liaison Team
INSPECTION OF THE PURCHASE OF PROTECTIVE FORCE
RESPIRATORS


TABLE OF
CONTENTS



              Overview


              Introduction and Objective………………………………… 1

              Background…………………………………………………. 1

              Observations and Conclusions……………………………            2


              Details of Findings………………………………………..               3

              Procurement Will Not Result In
               “Standard” Respirators…………………………………...            3

              Excessive Numbers of Respirators
               May Be Purchased……………………………………….                  3

              Procurement Not Adequately Coordinated……………..      4

              Procurement Approach Added Unnecessary Costs…...   5


              Recommendations………………………………………..                   5


              Management Comments………………………………..                  6


              Inspector Comments…………………………………….                  6

              Appendix

              A. Scope and Methodology………………………………               7
Overview
INTRODUCTION    The purpose of our inspection was to review selected issues
AND OBJECTIVE   regarding the procurement by the Department of Energy (DOE) of
                chemical protective masks (respirators) for use by DOE and
                National Nuclear Security Administration (NNSA) protective force
                personnel. Our objective was to determine whether the
                procurement by the DOE Office of Security and Emergency
                Operations (SO) of a large quantity of respirators resulted in SO
                achieving its goal of providing “standardized” respirators for use
                by protective force personnel Department-wide.

BACKGROUND      SO officials determined that their program to counter the threat to
                security forces from chemical and biological attacks should include
                the use of “standardized” equipment. In addition to requesting
                funds in their FY 2001 budget to “standardize” protective force
                equipment, SO officials initiated an evaluation of chemical
                protective gear for the purpose of selecting and procuring a
                “standard” respirator for use by protective force personnel at all
                sites.

                SO officials told us that the centralized procurement of a
                “standard” respirator was intended to: (1) provide a respirator that
                has proper form, fit, and function that is compatible with weapons
                and gear, including night vision goggles, used to interdict
                terrorists; (2) create economies of scale purchasing; (3) allow
                standardized training at the National Nuclear Security Institute
                (NNSI), formerly the Central Training Academy; and (4) allow
                ease of movement of protective force personnel from one site to
                another in the event of exigent circumstances.

                The standardization of protective force equipment was discussed in
                an earlier Office of Inspector General (OIG) audit report titled
                “Audit of the Management and Cost of the Department of Energy’s
                Protective Forces,” DOE/IG-0354, dated July 1994. Among other
                things, the OIG audit report discussed the potential savings that
                could be realized by the purchase of standardized protective force
                supplies and equipment.




Page 1                                            Inspection of the Purchase of
                                                  Protective Force Respirators
OBSERVATIONS AND   We concluded that SO officials did not adequately plan and
CONCLUSIONS        execute the procurement of respirators for use by the Department’s
                   protective forces. We found that the SO procurement will not
                   result in a standard respirator for use by protective force personnel
                   Department-wide, which was a goal of the procurement. We also
                   found that SO officials may be procuring considerably more
                   respirators than needed; that SO officials did not adequately
                   coordinate the procurement with affected organizations; and that,
                   by using an NNSI contractor to conduct the procurement, SO
                   officials may have unnecessarily spent about $63,000 to purchase
                   the respirators and other chemical protective equipment.




Page 2                                             Observations and Conclusions
Details of Findings
                       The only requirement we found regarding protective force
                       respirators was a requirement in the DOE “Protective Forces
                       Program Manual” (PFP Manual) that protective force personnel
                       have a respirator that meets specified criteria. SO officials
                       acknowledged that there are a number of different respirators that
                       can meet the PFP Manual criteria.

Procurement Will Not   We found that the SO procurement will not result in a standard
Result in “Standard”   respirator for use by protective force personnel Department-wide.
Respirators            Both the NNSA Office of Transportation Safeguards (OTS),
                       formerly the Transportation Safeguards Division, and the DOE
                       Idaho Operations Office (ID) recently procured different
                       respirators that apparently meet the PFP Manual criteria for an
                       acceptable respirator for protective force personnel. Therefore,
                       according to SO officials, SO will not provide respirators to OTS.
                       Although, SO officials said they would provide respirators for all
                       ID protective force members, we were told by ID officials that
                       about one-third of the ID protective force personnel would be
                       using a different respirator. As a result, OTS personnel will not be
                       equipped with the SO “standard” respirator, while ID protective
                       personnel will be using a mix of respirators, including the SO
                       “standard” respirator and the respirator procured by ID. According
                       to SO officials, other DOE sites may also seek exceptions to the
                       use of the SO “standard” respirator.

Excessive Numbers of   We also found that SO officials might be procuring considerably
Respirators May Be     more respirators than needed. The SO official responsible for
Purchased              determining the number of respirators to be purchased said that he
                       experienced difficulty obtaining information from the sites about
                       their specific respirator needs. Therefore, he used a DOE quarterly
                       report entitled “On-Hand Protective Force and PF Support
                       Personnel Strength, Maintained by SO-212 (FOD)” to determine
                       the number of respirators required. He said that he tallied the
                       number of Security Protection Officers II and III and OTS Special
                       Agents in the report, added the NNSI requirements, and then added
                       an additional 10 percent factor for replacement respirators. He
                       said that using this methodology he arrived at a total requirement
                       of 3700 respirators.

                       Using the SO official’s methodology, however, we calculated that,
                       at most, only 3,067 respirators (2,825 respirators if OTS personnel
                       are excluded) should be procured. We discussed the results of our
                       calculation with the SO official, who was unable to duplicate his
                       earlier calculation that resulted in the figure of 3700 respirators.
                       He acknowledged that his earlier calculation would result in SO
                       officials procuring more respirators than may be required.



Page 3                                                              Details of Findings
Procurement Not   We found that SO officials did not adequately coordinate the
Adequately        selection and procurement of the respirators with affected
Coordinated       organizations, such as those that will be required to fit and
                  maintain the respirators in the field. Traditionally, the Respirator
                  Protection Program Administrators (RPPAs) at various sites assess
                  their individual site’s concerns and specific hazards. Respirators
                  are then selected for all personnel at the site based on these
                  considerations. However, an SO official said that SO expects the
                  RPPAs to fit and maintain the respirators procured by SO for the
                  protective force personnel at their site.

                  We were told that an SO official discussed the respirator
                  procurement at the annual RPPA conference on April 11, 2000.
                  Although the RPPAs raised a number of concerns, SO officials
                  proceeded with the selection of a “standard” respirator for all sites
                  and subsequently initiated the procurement of the respirators
                  without additional input from or coordination with the respective
                  RPPAs. An SO official acknowledged that there were no RPPAs
                  on the source selection team for the procurement of the chemical
                  protective equipment. Although the SO official said that SO
                  consulted with a contractor RPPA from Sandia National
                  Laboratories regarding the respirators, the contractor RPPA told us
                  that he did not represent the RPPA community, nor was he asked
                  to coordinate with his colleagues.

                  We learned that site RPPAs, among others, have concerns with SO
                  selecting a specific respirator for use at all DOE sites. One
                  concern is that each site has a different environment with different
                  on-site hazards, which makes some respirators more suitable than
                  others from a maintenance perspective. The RPPAs were also
                  concerned with possible safety issues associated with such things
                  as fit testing of the respirator and the respirator drinking tube.
                  Although an SO official told us that he believed that SO had done
                  an “outstanding” job of coordination on the respirators, he said that
                  SO would commit to reaching out to RPPAs to address their
                  concerns.

                  We also learned that Headquarters protective force personnel
                  currently do not possess respirators. According to an SO official,
                  SO will provide respirators to Headquarters protective force
                  personnel as part of its procurement. The SO official provided us
                  the name of an Office of Environment, Safety and Health (EH)
                  official who he “assumed” would administer the respirator
                  program for the Headquarters protective force. However, the EH
                  official told us that he did not know who would be responsible for
                  the respirator program at Headquarters.



Page 4                                                          Details of Findings
Procurement Approach We also found that, by using an NNSI contractor to conduct the
Added Unnecessary    procurement, SO officials may have unnecessarily spent about
Costs                $63,000 to purchase the respirators and other chemical protective
                     equipment. We understand that SO decided to procure the
                     respirators through a subcontract with Wackenhut Services, Inc.
                     (WSI), the managing and operating contractor for NNSI, instead of
                     using the DOE Office of Headquarters Procurement Services
                     (DOE procurement). We believe that by using DOE procurement,
                     SO could have avoided an estimated $63,000 in “administrative”
                     costs added to the cost of the procurement by WSI.

                          We believe that SO used WSI because of a mistaken belief that DOE
                          procurement officials could not conduct the procurement. The SO
                          official responsible for the procurement acknowledged that he had not
                          received any formal acquisition training. According to his supervisor,
                          he (the supervisor) had been informed by a DOE procurement official
                          that DOE procurement could not act as the contracting entity for the
                          respirator procurement. However, when asked, the supervisor could
                          not recall the identity of the DOE procurement official who provided
                          him the information. When we discussed the procurement with a DOE
                          procurement official, he advised us that his office could have
                          performed the procurement. Accordingly, it appears that SO received
                          no additional value in return for the $63,000 provided to WSI to
                          conduct the procurement of the respirators and other chemical
                          protective equipment.

RECOMMENDATIONS           We recommend that the Director, Office of Security and
                          Emergency Operations:

                          1. Ensure that the future selection and procurement of
                             “standardized” equipment for protective forces are adequately
                             planned and appropriately coordinated with affected
                             organizations.

                          2. Ensure that SO officials responsible for procurement of
                             equipment for protective forces are knowledgeable of, and
                             appropriately trained in the Department’s acquisition process.




Page 5                                                                Recommendations
MANAGEMENT   In comments dated March 30, 2001, to our draft report, the SO
COMMENTS     Acting Director stated that SO agrees with our recommendations.
             Regarding Recommendation 1, he stated that SO agrees that better
             coordination should have been effected between SO, the
             Headquarters procurement office, and others impacted by the
             procurement and SO is taking steps to avoid this situation in the
             future. He said that program managers will be provided a copy of
             the OIG report covering this incident as a Lessons Learned
             exercise. Additionally, appropriate program management
             personnel will be scheduled to attend a course on procurement in
             line with the schedule identified in the response to
             Recommendation 2.

             Regarding Recommendation 2, the SO Acting Director stated that
             SO is reviewing the available courses for program managers and
             will schedule appropriate personnel as courses are offered. He said
             that a plan that identifies individuals to be trained and the courses
             each should attend will be completed by April 17, 2001.

             Regarding our finding that the SO procurement will not result in a
             standard respirator for use by protective force personnel
             Department-wide, the SO Acting Director stated that the
             standardization of protective masks is not a goal in and of itself.
             Rather, it is a step toward the goal of enhanced “interoperability”
             among the Department’s protective forces. He said the
             procurement facilitated the accomplishment of this step.

INSPECTOR    The corrective actions proposed by management are responsive
COMMENTS     to our recommendations.

             To the extent that obtaining a specific respirator that would be used by
             protective force personnel Department-wide was a goal of the SO
             procurement, the goal was not achieved. As we discussed in our
             report, OTS personnel were equipped with a different respirator. Also,
             about one-third of ID protective force personnel planned to use a
             different respirator than the respirator provided by SO. Moreover, SO
             officials acknowledged that other DOE sites may seek exceptions to
             using the respirator provided by SO.




Page 6                                   Management/Inspector Comments
Appendix A
SCOPE AND     We conducted the fieldwork portion of our review during the
METHODOLOGY   period July to March 2000. Our review included interviews with
              Department of Energy (DOE) officials, including National Nuclear
              Security Administration (NNSA) officials, at DOE Headquarters and
              selected field sites, who were involved in protective force activities,
              procurement of chemical/biological protective equipment, respiratory
              protection, and procurement activities. These included officials in the
              DOE Office of Security and Emergency Operations, the DOE Office
              of Management and Administration, the DOE Office of Environment,
              Safety and Health, the DOE Office of Environmental Management, the
              DOE Office of Science, and the NNSA Office of the Deputy
              Administrator for Defense Programs. We also interviewed DOE and
              DOE contractor officials at selected field sites, including members of
              the Respirator Protection Program Administrators Group. In addition,
              we reviewed applicable Federal rules and regulations, as well as DOE
              policies and procedures, regarding respiratory equipment.

              This inspection was conducted in accordance with the Quality
              Standards for Inspections issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                               Scope and Methodology
                                                                    IG Report No. INS O-01-04

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
